September 25, 2019
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Howard L. Baldwin & Karen E. Baldwin v.
United States of America, No. 19-402

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioners Howard L. Baldwin and
Karen E. Baldwin hereby give blanket consent to the filing of amicus curiae briefs in
support of either or neither party submitted before the Court’s consideration of the
petition for a writ of certiorari in the above-referenced case.
Sincerely,
Aditya Dynar
Counsel for Petitioners
cc:

Noel J. Francisco, Solicitor General
Counsel for Respondent United States of America

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

